Ti

@OCKLE

2311 Douglas Street Le ga l Brie f s E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-
MICHAEL BAKER,
Petitioner,

v.
UNITED STATES OF AMERICA,
Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 21st day of November, 2019, send
out from Omaha, NE | package(s) containing 3 copies of the PETITION FOR WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by third-party commercial carrier for delivery within 3 calendar
days. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
ALEXANDRA A.E. SHAPIRO DENNIS P. RIORDAN
SHAPIRO ARATO BACH Counsel of Record
500 Fifth Ave. TED SAMPSELL-JONES
A0th Floor RIORDAN & HORGAN
New York, NY 10110 1611 Telegraph Ave.
(212) 257-4880 Suite 806

Oakland, CA 94612
(415) 431-3475
dennis@riordan-horgan.com.

Subscribed and sworn to before me this 21st day of November, 2019.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

on, i Cole Odea, hh

My Commission Expires Nov 24, 2020

 

Notary Public Affiant 39005
SERVICE LIST

Noel J. Francisco

Solicitor General of the United States
U.S. Department of Justice

Room 5616

950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001

(202) 514-2217
supremectbriefs@usdoj.gov
